Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  IMPROPER PAYMENTS FOR 

 MEDICAID PEDIATRIC DENTAL 

         SERVICES





                    Daniel R. Levinson

                     Inspector General 


                     September 2007

                     OEI-04-04-00210

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations. These assessments help reduce waste,
abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on
significant issues. Specifically, these evaluations focus on preventing fraud, waste, or
abuse and promoting economy, efficiency, and effectiveness in departmental programs.
To promote impact, the reports also present practical recommendations for improving
program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support in OIG's internal operations. OCIG imposes program exclusions and civil
monetary penalties on health care providers and litigates those actions within HHS.
OCIG also represents OIG in the global settlement of cases arising under the Civil False
Claims Act, develops and monitors corporate integrity agreements, develops compliance
program guidances, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
Δ   E X E C U T I V E                                    S U M M A R Y


                  OBJECTIVE
                  To assess the appropriateness of Medicaid payments for pediatric dental
                  services during calendar year 2003 in five States.


                  BACKGROUND
                  Improper Medicaid payments for dental services have been identified
                  periodically by State Medicaid Fraud Control Units (MFCU). In 2004,
                  a MFCU investigation determined that dentists were reimbursed
                  $4.5 million for unnecessary dental services. In 2000, another MFCU
                  identified a widespread fraud scheme by dentists who recruited children
                  to receive Medicaid-reimbursable services, many of which were
                  unnecessary or were not provided.

                  In 1967, Congress established the Early and Periodic Screening,
                  Diagnostic, and Treatment (EPSDT) program under Medicaid to ensure
                  that children and youth receive routine and preventive health care
                  services. To meet the EPSDT requirements, States must provide
                  routine services to children and youth, even if these services are not
                  available to other needy populations in the State’s Medicaid program.

                  Federal regulations require State Medicaid programs to ensure that
                  claims for EPSDT services are accurate, supported by documentation,
                  and provided as medically necessary. The Medicaid policies established
                  in each of the five States we reviewed also included these requirements.

                  In this report, we examined a stratified random sample of Medicaid
                  pediatric dental services provided in five States during 2003 to
                  determine whether the services met requirements for proper
                  documentation, billing, and medical necessity.


                  FINDINGS
                  Thirty-one percent of Medicaid pediatric dental services in the five
                  States resulted in improper payments. In the five States we reviewed,
                  improper payments for pediatric dental services provided during
                  calendar year 2003 totaled an estimated $155 million, of which the
                  Federal share was approximately $96 million.

                  An estimated 24 percent of services had documentation errors that
                  prevented medical record reviewers from determining whether the
                  services were medically necessary and/or billed appropriately.


OEI-04-04-00210   I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   i
E X E C U T I V E                   S U           M M A R Y 





                      Documentation errors accounted for $138 million (89 percent) of the
                      total improper payments we identified.

                      In addition, 7 percent of services did not meet billing requirements and
                      2 percent were medically unnecessary. The total percentage of errors
                      exceeds 31 percent because some services had more than one type of
                      error.
                      Documentation errors accounted for the largest amount of improper
                      payments in all five States. Improper Medicaid payments for pediatric
                      dental services ranged from an estimated $3 million to $78 million in
                      the five States we reviewed. Despite this variation among the States,
                      the majority of improper payments in each State were due to
                      documentation errors. Payments for services with documentation errors
                      ranged from 75 percent to 94 percent of a State’s total improper
                      payments for pediatric dental services.


                      RECOMMENDATIONS
                      We found that 31 percent of the Medicaid pediatric dental services
                      provided in calendar year 2003 in the five States we reviewed resulted
                      in estimated improper payments of $155 million. Documentation errors
                      were the most common, resulting in $138 million of the total improper
                      payments (89 percent).

                      Without the required documentation, State Medicaid agencies, medical
                      record reviewers, or other oversight authorities cannot determine the
                      appropriateness of services. Accordingly, we recommend that the
                      Centers for Medicare & Medicaid Services (CMS) take the following
                      actions to reduce documentation errors for Medicaid pediatric dental
                      services:
                      Increase Efforts to Ensure That States Enforce Existing Policies Relating
                      to the Proper Documentation of Pediatric Dental Services
                      For example, CMS can assist States in targeting medical reviews and or
                      developing prepayment edits to ensure appropriate documentation of
                      certain pediatric dental services.
                      Provide Assistance to States to Promote Provider Awareness and Ensure
                      Compliance with Documentation Requirements
                      For example, CMS can assist States with developing educational
                      brochures for Medicaid pediatric dental providers that emphasize the
                      importance of documentation.



    OEI-04-04-00210   I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   ii
E X E C U T I V E                   S U           M M A R Y 





                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS did not indicate whether it concurred with our recommendations.
                      Rather, CMS stated that it “does not disagree” with our
                      recommendations and that our recommendations dovetail into the
                      Medicaid Integrity Group's charge to provide effective support and
                      assistance to States. Where appropriate, we made changes to the report
                      in response to CMS’s technical comments.




    OEI-04-04-00210   I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   iii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 7

                   Thirty-one percent of services resulted in improper payments . . . . 7 


                   Documentation errors accounted for the largest

                   amount of improper payments . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 

                   Agency Comments and Office of Inspector General Response . . . 12 



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 

                   A: 	Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 


                   B: 	Point Estimates and Confidence Intervals . . . . . . . . . . . . . . . . 20 


                   C: 	Detailed Error Summary. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23 


                   D: 	Comparison of Documentation and Total Error Rates 

                       by State . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 


                   E: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 





         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

Δ   I N T R O D U C T I O N


                  OBJECTIVE
                  To assess the appropriateness of Medicaid payments for pediatric dental
                  services during calendar year 2003 in five States.


                  BACKGROUND
                  Title XIX of the Social Security Act established Medicaid in 1965 as a
                  Federal-State partnership to provide certain basic services to
                  categorically and medically needy populations.1 The program currently
                  serves approximately 58 million people, including children, the aged,
                  the blind, the disabled, and people who are eligible to receive
                  Supplemental Security Income.2
                  States have flexibility in designing their Medicaid programs; however,
                  they must meet certain minimum requirements to receive Federal
                  matching funds. Within these broad Federal requirements, “each State
                  decides eligible groups, types and range of services, payment levels for
                  services, and administrative and operating procedures” for its Medicaid
                  program.3
                  Improper Medicaid Payments for Dental Services
                  Improper Medicaid payments for dental services have been identified
                  periodically by State Medicaid Fraud Control Units (MFCU).4 Improper
                  payments include “any payment that should not have been made or was
                  made in an incorrect amount under statutory, contractual,
                  administrative or other legally applicable requirement.”5
                  In 2004 an investigation by California’s MFCU led the State Attorney
                  General to file charges against 20 dentists for defrauding California’s


                      1 42 U.S.C. §§ 1396-1396v; sections 1901-1936 of the Social Security Act.
                      2 Medicaid Statistical Information System State Summary Datamart, based on 2004
                  data. Available online at http://msis.cms.hhs.gov. Accessed on January 2007.
                      3 Program description of Grants to States for Medical Assistance Programs: 42 CFR
                  § 430.0.
                      4 Under section 1902(a)(61) of the Social Security Act, each State is responsible for
                  operating a MFCU unless it would not be cost effective. MFCUs investigate and prosecute
                  violations of State Medicaid provisions and review complaints of abuse or neglect. Section
                  1903(q) of the Social Security Act describes State requirements for fraud control.
                    5 “Implementation Guidance for the Improper Payments Information Act of 2002, Public
                  Law 107-300,” Chief Financial Officers Council-President’s Council on Integrity and
                  Efficiency Erroneous and Improper Payments Work Group.




OEI-04-04-00210   I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   1
I N T R O D         U C T          I O N



                      Medicaid Program, abusing children and elders, and intentionally
                      inflicting bodily injury.6 The dentists unnecessarily performed root
                      canals, drilled into patients’ healthy teeth, and completed as many as
                      20 medically unnecessary filling procedures on the same patient,
                      defrauding the Medicaid program of $4.5 million.

                      In 2000, Florida’s MFCU investigated a widespread Medicaid fraud
                      scheme by dentists who recruited children to receive Medicaid-
                      reimbursable services. Many of the services were found to be
                      unnecessary or not provided.7
                      In fiscal year 2006, the Centers for Medicare & Medicaid Services
                      (CMS) implemented a program designed to estimate and monitor State
                      and national improper payment rates in the Medicaid program.8
                      However, CMS does not estimate improper payment error rates for
                      specific services (e.g., dental services) at the State or national levels.
                      Medicaid Coverage of Pediatric Dental Services
                      In 1967, Congress established the Early and Periodic Screening,
                      Diagnostic, and Treatment (EPSDT) program under Medicaid. The
                      EPSDT program requires States to provide children and youth with
                      routine and preventive health care services that normally may not have
                      been provided through the Medicaid program. To meet the EPSDT
                      requirements, States must provide dental screenings and all medically
                      necessary diagnostic, preventive, and treatment services to children and
                      youth, even if these services are not available to other needy
                      populations in the States’ Medicaid programs.9




                        6 “Dentists Accused of Fraud, Assault,” San Francisco Chronicle. September 23, 2004.
                      Available online at http://www.sfgate.com/cgi-
                      bin/article.cgi?f=/c/a/2004/09/23/MNGQK8TI8U1.DTL&hw=Medi+cal+dental&sn=012&sc=2
                      24 . Accessed on November 9, 2006.
                          7 “13 Arrested For Medicaid Fraud at South Florida Dental Clinics,” Office of the
                      Attorney General of Florida. December 7, 2000. Available online at
                      http://myfloridalegal.com/newsrel.nsf/newsreleases/634AAC1241EADF5B852569AE004F64
                      B7 . Accessed on October 5, 2006.
                         8 CMS implemented the Payment Error Rate Measurement program in fiscal year 2006
                      to comply with Public Law 107-300. Available online at www.amchp.org/policy/PERM1.pdf.
                      Accessed on March 9, 2006.
                          9 The Federal EPSDT requirements are described in 42 CFR § 441.56. States must offer
                      these services to children and youth under 18 years of age but may choose to extend
                      eligibility through age 21. All five States examined in our study offered EPSDT coverage to
                      beneficiaries up to age 21 in 2003.



  OEI-04-04-00210     I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   2
I N T R O D         U C T          I O N


                     In 2003, Federal and State spending on all Medicaid dental services
                     totaled $3 billion.10 In this report, we analyzed Medicaid pediatric
                     dental services provided during calendar year 2003 in five States
                     (Idaho, Indiana, Massachusetts, North Carolina, and Texas), hereafter
                     referred to as States A-E.11 In the five States, pediatric dental services
                     cost $555 million in 2003.12 This amount represented over 90 percent of
                     Medicaid payments for all (adult and pediatric) dental services in the
                     five States.13 Furthermore, pediatric dental services in the five States
                     accounted for over 18 percent of the national Medicaid expenditures for
                     pediatric dental services provided in 2003.
                     Federal and State Medicaid Requirements for Claims Payments
                     Federal regulations require State Medicaid programs to ensure that
                     claims are supported by documentation and accurately billed.
                     Specifically, to ensure that claims are supported by documentation,
                     States must require providers to “[k]eep any records necessary to
                     disclose the extent of services the provider furnishes.”14 To ensure
                     accurate billing, States are required to include a statement on the claim
                     forms that, when signed by the provider, certifies the accuracy and
                     completeness of information submitted for reimbursement of services.15
                     Finally, Federal law requires States to ensure that services are provided
                     to the EPSDT population as medically necessary. In addition, the
                     EPSDT benefit requires States to provide “[s]uch other necessary health
                     care to . . . correct or ameliorate defects,” or conditions.16
                     Federal regulations permit States to set billing and documentation
                     requirements for specific services offered under their EPSDT program.17
                     Examples of service-specific requirements include restrictions on the

                         10 Medicaid Budget and Expenditure System dental claims for fiscal year 2003.
                         11 In this report, the letters A-E refer to the same States throughout the report but do
                     not correspond to the order of States as they are listed here.
                        12 The Federal share of this total was approximately $344 million. Pediatric dental
                     claims data were obtained directly from the States.
                        13 Payments for all Medicaid dental services (both adult and pediatric) in the five States
                     totaled $610 million in fiscal year 2003 (Federal share of approximately $376 million).
                     Medicaid Budget and Expenditure System dental claims for fiscal year 2003.
                         14 Required provider agreement, 42 CFR § 431.107(b)(1).
                         15 Provider’s statements on claims forms, 42 CFR § 455.18(a)(1).
                         16 Social Security Act § 1905(r)(5). This requirement applies specifically to EPSDT
                     services.
                         17 42 CFR §§ 441.58(a) and 441.56(b)(2) allow States to use “reasonable standards of
                     medical and dental practice” to determine the frequency of services. 42 CFR §440.230(d)
                     allows States to place appropriate limits on a service.



  OEI-04-04-00210    I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   3
I N T R O D           U C T       I O N




                         frequency of services that can be provided within a specific timeframe,
                         such as the number of cleanings per year, and limitations based on the
                         patient’s age.


                         METHODOLOGY
                         We used peer medical record review to evaluate a sample of Medicaid
                         pediatric dental services provided during calendar year 2003 in States
                         A-E. See Appendix A for additional information about our methodology.
                         Sample Selection
                         Our sampling universe was limited to fee-for-service Medicaid pediatric
                         dental services that were provided during calendar year 2003 in States
                         A-E. To select the five States, we ranked all 50 States by Medicaid
                         dental spending in fiscal year 2002 and eliminated States that used
                         managed care to pay for any portion of their dental services. We also
                         selected States based on the availability of the States’ data in the
                         Medicaid Statistical Information System database at the time of data
                         collection, the percent of Medicaid spending on pediatric dental services,
                         and the regional and economic diversity of the States.

                         Using information from each State’s Medicaid Management Information
                         System (MMIS) database, we constructed a stratified sample of
                         2,000 pediatric dental services. To improve our estimates, we stratified
                         our population based on Medicaid allowed payments. Each State’s
                         population was divided into 3 strata, for a total of 15 strata. We
                         excluded services rendered by providers that were under investigation
                         at the time of our study, reducing our sample size to 1,824 services.18
                         Medical Record Review
                         We requested medical records from the providers in our sample of
                         1,824 services and received records for 96 percent of the services
                         (1,744 services). The remaining 4 percent of services with medical
                         records that were not provided (80 services) are included as
                         undocumented errors in our results.19 We contacted nonresponding
                         providers at least three times to obtain the medical records. To ensure
                         that they had received our requests, we telephoned providers that failed
                         to respond to our original and follow-up written requests.


                           18 See Table 3 of Appendix A for population and sample information, before and after
                         excluding providers under investigation.
                             19 An error is defined as a violation of one or more State requirement.




    OEI-04-04-00210      I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   4
I N T R O D         U C T          I O N 





                      Certified professional coders and licensed dentists reviewed the records
                      obtained from providers. All coders had experience in performing
                      medical record reviews, and the dentists were all licensed to practice in
                      at least one State. These medical record reviewers used 2003 State
                      Medicaid policies that included requirements specific to the EPSDT
                      services to identify documentation and billing errors. Each State’s
                      policies were used to identify errors in the services from that State. For
                      example, the medical record reviewers used 2003 Texas Medicaid
                      policies to examine services in our sample provided in Texas.20 To
                      determine whether services were medically necessary, the medical
                      record reviewers used State and Federal standards of medical necessity
                      for services provided to the EPSDT population.21
                      Error Categorization
                      We grouped the services that had errors into three categories—
                      documentation errors, billing errors, and medical necessity errors. To
                      provide more detailed information regarding the type of errors we
                      identified, we categorized the primary error categories into
                      subcategories where appropriate.

                      For example, we further categorized documentation errors as those that
                      were insufficiently documented and those that were undocumented. We
                      further categorized billing errors as services that had incorrect
                      procedure codes (upcoded and downcoded), were not billable, were
                      unbundled, and were billed with an incorrect number of units.
                      Appendix A contains a more detailed description of these categories and
                      subcategories.
                      Data Analysis
                      We analyzed the medical record review results in SAS, a software
                      program used for statistical analysis. Specifically, for each of the three
                      error types, we statistically projected the error percentages and the
                      improper payments for Medicaid pediatric dental services provided
                      during 2003 in the five States. We calculated the improper payments
                      based on the amount paid for the services as specified in each State’s
                      MMIS database.



                        20 Quality assurance steps, such as interrater reliability testing to ensure consistency
                      among the reviewers, were used throughout the review process. See “Quality Assurance” in
                      Appendix A for more information.
                          21 Social Security Act §§ 1905(r)(3) and (5).




  OEI-04-04-00210     I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   5
I N T R O D        U C T             I O N 





                    For services that were upcoded, downcoded or unbundled or had the
                    incorrect number of units, we considered only a portion of the payment
                    for the service to be improper. We determined the improper amount for
                    each of these services by calculating the difference between the
                    Medicaid payment made to the provider and the payment that should
                    have been made based on our medical record review. For all other
                    services (i.e., services with documentation errors, medically unnecessary
                    services, and services that were not billable), we considered the entire
                    amount paid to the provider to be improper.
                    Limitations
                    Our results cannot be extrapolated nationally, to other States, or
                    beyond the timeframe of our evaluation. Accordingly, we make no
                    inferences about improper payments outside our evaluation scope.
                    Standards
                    This evaluation was conducted in accordance with the “Quality
                    Standards for Inspections” issued by the President’s Council on
                    Integrity and Efficiency and the Executive Council on Integrity and
                    Efficiency.




 OEI-04-04-00210    I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   6
Δ      F I N D I N G S



Thirty-one percent of Medicaid pediatric dental           In the five States we reviewed,
services in the five States resulted in improper          31 percent of Medicaid pediatric
                                       payments           dental services provided during
                                                          calendar year 2003 did not meet
                     documentation, billing, and medical necessity requirements (see
                     Table 1). Improper payments for these services totaled an estimated
                     $155 million, of which the Federal share was approximately
                     $96 million.22

                       Table 1: Error Rates for Medicaid Pediatric Dental Services Provided in
                       Five States, 2003

                                                                                                     Services          Amount Paid
                       Type of Error                                                               (Percentage)         (Millions)
                       Documentation                                                                   24%                $138
                       Billing                                                                              7%            $12
                       Medically Unnecessary                                                                2%            $12*
                       (Overlapping errors)**                                                              (2%)           ($7)*
                       Total Errors                                                                        31%            $155
                     * Relative precision is too large to confidently project. 

                     ** Overlapping errors are subtracted to obtain the category’s total.

                     Source: Office of Inspector General medical record review of Medicaid pediatric dental services. 




                     Appendix B (Tables 5-10) gives the point estimates and confidence
                     intervals for the errors and improper payments listed in Table 1 and
                     Appendix C (Tables 11-13) provides further detail on the errors and
                     improper payments we found.
                     Twenty-four percent of services had documentation errors
                     Documentation errors were the most common type of error.23 An
                     estimated 24 percent of pediatric dental services provided during
                     calendar year 2003 in the five States did not meet documentation
                     requirements. Specifically, 18 percent were insufficiently documented
                     and 6 percent were undocumented.24 In total, these services


                       22 This estimate is calculated based on a 62-percent Federal share of Medicaid dental
                     expenditures in 2003.
                       23 The documentation error rate was statistically different from both the billing error
                     rate and the medically unnecessary error rate at the 95-percent confidence level.
                       24 See Appendix B for the point estimates and confidence intervals for insufficiently
                     documented and undocumented subcategories.



   OEI-04-04-00210   I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S                 7
F   I N D I N G       S         





                      represented an estimated $138 million of the improper payments we
                      identified (see Appendix C, Table 11). Without the required
                      documentation, medical record reviewers could not determine whether
                      these services were medically necessary and/or billed appropriately.
                      Insufficiently Documented Services
                      Of those services that had documentation errors, almost three-fourths
                      were insufficiently documented. Therefore, the medical record
                      reviewers were unable to determine whether these services were
                      medically necessary, billed correctly, or both.

                      An estimated 18 percent of pediatric dental services had insufficient
                      documentation. Specifically, 13 percent were insufficiently documented
                      to determine if the services were medically necessary and 9 percent
                      were insufficiently documented to determine if the services were billed
                      correctly. An additional 4 percent of services had insufficient
                      documentation to determine whether the services were both medically
                      necessary and billed correctly and were, therefore, subtracted from the
                      total to prevent double counting. In total, insufficiently documented
                      services accounted for an estimated $103 million of the improper
                      payments.

                      Examples of services that were insufficiently documented to determine
                      medical necessity included (1) a procedure that was supported by an
                      inconclusive (unreadable) x-ray and (2) a crown placement that was
                      supported by a record that did not include an x-ray of the tooth.

                      Examples of services that were insufficiently documented to determine
                      correct billing included medical records that indicated that the provider
                      (1) performed a restoration on particular teeth but did not identify the
                      tooth surfaces that were restored and (2) removed an impacted tooth but
                      failed to indicate the type of removal (information that affects
                      reimbursement of the service).25
                      Undocumented Services
                      Of those services that had documentation errors, over one-fourth were
                      undocumented. Undocumented services either had no documentation or
                      were unsubstantiated by the documentation submitted.

                      An estimated 6 percent of pediatric dental services were undocumented.
                      Specifically, we did not receive documentation for 4 percent of services


                          25 Partially and completely bony removals are reimbursed different amounts.




    OEI-04-04-00210   I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   8
F   I N D I N G         S



                            in our sample, and 2 percent of services were unsubstantiated by the
                            documentation submitted. Undocumented services accounted for an
                            estimated $34 million of the total improper payments.26
                            Examples of unsubstantiated services included those for which the
                            records submitted by the providers contained only the account ledger (a
                            financial document used by the providers to claim reimbursement) and
                            records that lacked clinical treatment notes describing the medical
                            aspect of the services.
                            Seven percent of services had billing errors
                            An estimated 7 percent of pediatric dental services provided during
                            calendar year 2003 in the five States had billing errors. Billing errors
                            included services billed with incorrect procedure codes, services that
                            were not billable because they violated a Federal or State requirement
                            for reimbursement, unbundled services, and services billed with the
                            incorrect number of units.27 In total, billing errors accounted for an
                            estimated $12 million of the improper payments (see Appendix C,
                            Table 12). 28
                            Examples of services with incorrect procedure codes included upcoded
                            and downcoded services. Specifically, a limited oral exam was billed as
                            a service that had a higher reimbursement rate (upcoded service), and a
                            tooth extraction was billed as a service that had a lower reimbursement
                            rate (downcoded service).

                            Examples of services that were not billable included two orthodontic
                            adjustments billed in the same month, violating the State’s limitation
                            on the frequency for that service. Also, an anesthesia was billed
                            separately from a restorative procedure performed on the same day.
                            However, according to the State’s policy, restorations include payment
                            for anesthesia.




                              26 The estimated improper payments for insufficiently documented and undocumented
                            services are rounded and, therefore, do not equal the improper payments for all
                            documentation errors when summed.
                                27 Unbundled services are billed using multiple individual codes rather than a single
                            appropriate code for the combination of services described in the dental record.
                                28 For services that were upcoded, downcoded or unbundled or had the incorrect number
                            of units, we did not consider the entire payment for the service to be improper. We
                            calculated the improper amount as the difference between the payment made by Medicaid
                            and the appropriate payments that should have been made for each of the services.



      OEI-04-04-00210       I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   9
    F   I N D I N G       S




                          Two percent of services were medically unnecessary
                          An estimated 2 percent of pediatric dental services provided during
                          calendar year 2003 in the five States were medically unnecessary.
                          These services represented an estimated $12 million of the total
                          improper payments.29
                          Examples of medically unnecessary services included a root canal
                          performed on a primary tooth that was ready to fall out, crowns placed
                          on teeth that did not have large areas of decay warranting that level of
                          restoration, and sealants inappropriately applied to primary teeth.



Documentation errors accounted for the largest amount            In the five States we reviewed,
                                                                 improper Medicaid payments for
      of improper payments in each of the five States
                                                                 pediatric dental services ranged
                                                                 from an estimated $3 million to
                          $78 million. Despite this wide variation among the States, the majority
                          of improper payments in each State were due to documentation errors.30
                          As illustrated in Table 2, documentation errors represented between
                          75 percent and 94 percent of a State’s estimated improper payments. In
                          three of the five States, documentation errors accounted for at least
                          90 percent of total improper payments.

                              Table 2: Improper Payments for Services With Documentation Errors
                              in the Five States
                                                            Projected Improper Payments (Millions)
                                State               Documentation Errors                                        All Errors*   Percentage
                                    A                                $3.19                                           $3.38       94%
                                    B                              $25.32                                           $28.56       89%
                                    C                              $71.78                                           $77.91       92%
                                    D                              $24.18                                           $26.98       90%
                                    E                              $13.42                                           $17.88       75%
                                 Total                            $137.88                                          $154.72       89%
                          * Estimated improper payments do not include improper payments for services with overlapping errors.
                          Source: Office of Inspector General medical review of Medicaid pediatric dental services.


                              29 The relative precision equals 56 percent. See Appendix B for point estimates and
                          confidence intervals.
                              30 For each State we reviewed, the improper payments for services with documentation
                          errors were statistically different from the improper payments for all other errors (billing
                          and medical necessity) in that State at the 95-percent confidence level.



        OEI-04-04-00210   I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S              10
F   I N D I N G          S          




                          Furthermore, in four of the five States (States A, B, C, and D),
                          documentation errors were more prevalent than billing and medical
                          necessity errors combined.31 The horizontal bars in Figure 1 (A-E)
                          represent the overall error rate in each of the corresponding States. The
                          overall error rate in each State is divided into documentation errors and
                          other errors (billing and medical necessity errors, which are combined).

           Figure 1.                                                                                                                    Documentation Errors
                             A
      Comparison of                                                                                                                     Other Errors
      Documentation
                             B
        and All Other
    Errors in the Five
               States        C


                             D


                             E




                                 0%          5%           10%           15%     20%      25%      30%                       35%   40%
                                                                          Total Errors (By State)

                         Note that estimated total error rates do not include overlapping errors. 

                         Source: Office of Inspector General medical record review of Medicaid pediatric dental services. 





                          For example, the overall error rate (total of documentation, billing,
                          and/or medical necessity errors) in State A was approximately
                          19 percent. The documentation error rate in State A was 18 percent
                          and less than 1 percent of services in State A were medically
                          unnecessary or billed inappropriately. See Appendix D for the specific
                          documentation error rates and overall error rates in each State.




                             31 There is a statistical difference between the documentation error rate and all other
                          errors in these four States.



    OEI-04-04-00210       I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S                          11
Δ   R E C O M M E N D A T I O N S




                      We found that 31 percent of the Medicaid pediatric dental services
                      provided in calendar year 2003 in the five States resulted in estimated
                      improper payments of $155 million. These services did not meet
                      Federal and State requirements for documentation, billing, and medical
                      necessity of EPSDT services.

                      Documentation errors were the most common type of error. We
                      estimate that documentation errors resulted in $138 million of the total
                      $155 million in improper payments (89 percent).

                      Without the required documentation, State Medicaid agencies, medical
                      record reviewers, or other oversight authorities cannot determine the
                      appropriateness of services based on their medical necessity and/or their
                      billing. Federal regulations and State Medicaid policies already specify
                      requirements for the proper documentation of services. Accordingly, we
                      recommend that CMS take the following actions to reduce
                      documentation errors for Medicaid pediatric dental services:
                      Increase Efforts to Ensure that States Enforce Existing Policies Relating
                      to the Proper Documentation of Pediatric Dental Services
                      For example, CMS can assist States in targeting medical reviews and or
                      developing prepayment edits to ensure appropriate documentation of
                      certain pediatric dental services.
                      Provide Assistance to States to Promote Provider Awareness and Ensure
                      Compliance with Documentation Requirements
                      For example, CMS can assist States with developing educational
                      brochures for Medicaid pediatric dental providers that emphasize the
                      importance of documentation.

                      In addition to these recommendations, we will forward information on
                      the miscoded, insufficiently documented, and medically unnecessary
                      services in our sample to CMS for appropriate action.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS did not indicate whether it concurred with our recommendations.
                      Rather, CMS stated that it “does not disagree” with our
                      recommendations and that our recommendations dovetail into the
                      Medicaid Integrity Group’s charge to provide effective support and
                      assistance to States.


    OEI-04-04-00210   I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   12
R   E C O    M M E N D A T                      I O N               S



                       CMS noted that this study was conducted in only five States and that
                       the results cannot be extrapolated nationally, to other States, or beyond
                       the timeframe under review. CMS questioned whether missing or
                       incomplete documentation may have been stored electronically and not
                       included in provider responses. While this is possible, providers are
                       required, upon request, to provide legible and complete documentation
                       to support claims. CMS also expressed concerns about children’s access
                       to Medicaid dental services. The objective of this report is to assess the
                       appropriateness of Medicaid payments for pediatric dental services
                       during calendar year 2003 in five States.

                       Where appropriate, we made changes to the report in response to CMS’s
                       technical comments. The full text of CMS’s comments is provided in
                       Appendix E.




     OEI-04-04-00210   I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   13
Δ      A P P E N D I X                              A



                      DETAILED METHODOLOGY
                      Below, we elaborate on the methodology used to accomplish our
                      objective.
                      Scope
                      Services in our universe were restricted to fee-for-service Medicaid
                      dental services provided to children and youth under the age of
                      21 during calendar year 2003 in five States (Idaho, Indiana,
                      Massachusetts, North Carolina, and Texas). These five States are
                      referred to as States A-E.32 We focused this evaluation on Medicaid
                      pediatric dental services because, as required by the EPSDT program,
                      States must provide Medicaid-eligible children and youth with initial
                      and periodic examinations and medically necessary follow-up care,
                      including dental care.
                      State Selection
                      We focused our evaluation on five States, which we selected based on
                      the following characteristics:
                      • high total Medicaid dental expenditures;
                      • no managed care for Medicaid dental services;
                      • complete submission of Medicaid Statistical Information System
                        data for 2002;
                      • percentage of Medicaid spending on pediatric dental services;
                      • variation in demographic characteristics (e.g., geographic
                        distribution and economic characteristics); and
                      • overall Medicaid spending.
                      Sample Selection
                      Based on information from each State’s MMIS database, we constructed
                      a clustered sample of 2,000 pediatric dental services. To improve our
                      estimates, we stratified our population based on Medicaid allowed
                      payments. Each State’s population was divided into 3 strata, for a total
                      of 15 strata.




                        32 In this report, the letters A-E refer to the same States throughout the report but do
                      not correspond to the order of States as they are listed here.



    OEI-04-04-00210   I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   14
             A    P    P E N D             I X           A           





                                                      We cross-checked the provider information for the services in our
                                                      sample with the Office of Inspector General’s Office of Investigations
                                                      and the lists of active investigations compiled by each State’s Medicaid
                                                      Fraud Control Unit. We excluded services rendered by providers under
                                                      active investigations. The excluded services reduced the expenditures
                                                      for services in our sample from $202,650 to $188,298 and reduced our
                                                      sample size to 1,824 services. Table 3 provides information about the
                                                      sample size and population, before and after excluding services
                                                      rendered by providers that were under investigation.

   Table 3: Strata Definitions and Sizes for Sample and Population

                                                                 Sample Excluding
                                                                  Providers Under                                                                       Population Excluding Providers
  Stratum Definition               Sample                          Investigation                                            Population                       Under Investigation
  (Range of                Services                            Services
  Amounts Paid in          (Stratum     Amount                 (Records       Amount
  Stratum)                   Size)       Paid*                Requested)       Paid*                           Services                Amount Paid*      Services       Amount Paid*

  $0.01 - $59.99                 750           $21,345                     687           $19,517                11,351,211              $302,959,310     11,128,821      $295,165,087

  $60.00 - $129.99               750           $59,380                     674           $53,458                  1,996,044             $158,308,629       1,876,648     $148,457,863

  $130.00 or more                500        $121,924                       463         $115,322                      414,797              $94,117,690       396,087       $90,908,971

  Total                        2,000        $202,650                     1,824         $188,298                 13,762,052              $555,385,630     13,401,556      $534,531,922
* Sample and population paid amounts are rounded to the nearest whole dollar figure.
Lines may not sum to totals due to rounding.
Source: Office of Inspector General analysis of calendar year 2003 Medicaid pediatric dental claims data in selected States.

                                                      Medical Record Review
                                                      We contracted with a medical record review company to collect medical
                                                      records from providers. The contractor mailed initial record requests to
                                                      the providers for the services in our sample. If necessary, follow-up
                                                      requests were mailed 15 days later to those providers that had not yet
                                                      responded and second follow-up requests were made by fax or telephone
                                                      15 days after the first followup. In addition, the contractor made
                                                      further attempts to collect medical records from the remaining
                                                      nonrespondents.

                                                      We categorized the services for which these attempts were unsuccessful
                                                      as undocumented. We spoke on the telephone with the staff of these
                                                      providers to ensure that they received our original and follow-up written
                                                      requests. Table 4, on the next page, lists each State’s response rate and
                                                      the response rate for the entire sample.

                                                      We did not conduct onsite visits to the providers that did not submit the
                                                      requested medical records to follow up on the status of the records.

                          OEI-04-04-00210             I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S                         15
A   P   P E N D       I X            A



                       Further, we did not compare the information submitted with
                       information that may have been saved electronically onsite (e.g., records
                       with handwritten incorrect dates of service were not compared to the
                       electronic records of the patients’ appointments).



                            Table 4: Response Rates in States A-E

                                                 Records                     Records                     Response
                          State                 Requested                    Received                      Rate

                                A                            386                          373                     96.6%

                                B                            400                          380                     95.0%

                               C                             351                          328                     93.4%

                               D                             308                          298                     96.8%

                                E                            379                          365                     96.3%

                             Total                        1,824                        1,744                      95.6%
                       Source: Office of Inspector General analysis of Medicaid pediatric dental
                       claims data.

                       The medical record review was conducted in two stages:
                       • Stage 1—Certified Professional Coder Review: Coders reviewed
                         records for compliance with documentation and billing
                         requirements. They determined whether each service was
                         documented and billed correctly and noted when the documentation
                         was insufficient to make these determinations.
                       • Stage 2—Licensed Dentist Review: Dentists reviewed records of
                         services that were documented to determine whether they were
                         medically necessary and noted when the documentation was
                         insufficient to make determinations of medical necessity.
                       Quality Assurance. Prior to initiating the medical record review, all
                       coders and dentists were asked to review 100 services (20 services per
                       State) outside of our sample for quality assurance purposes. This
                       interrater reliability testing ensured that the reviewers were completing
                       the review instrument and interpreting the applicable regulations
                       consistently. In addition, the contractor’s project manager randomly
                       checked coder and dentist review results throughout the review process,
                       examined all results to ensure that they were completed correctly and
                       consistently, and verified data entry.



    OEI-04-04-00210    I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S    16
A   P   P E N D        I X      A           





                             Error Categorization
                             We grouped the services that had errors into three categories—
                             documentation errors, billing errors, and medical necessity errors.33
                             The criteria used to identify these errors included State Medicaid
                             policies and Federal EPSDT regulations for documentation, billing, and
                             medical necessity of the services.
                             Documentation errors: Federal regulations and State Medicaid policies
                             from the five States we reviewed required providers to maintain and
                             furnish documentation that substantiates the nature and extent of all
                             services provided to the recipients. Therefore, payments for services
                             that did not meet State documentation requirements were considered
                             improper although the services may have been appropriate in terms of
                             medical necessity and billing.

                             We categorized services that did not meet documentation requirements
                             as either insufficiently documented or undocumented.

                             Insufficiently documented services lacked sufficient information to
                             determine whether the services were medically necessary or correctly
                             billed. These services were often missing a crucial piece of evidence,
                             such as a test result, an x-ray, or a narrative to explain or support the
                             billed service. We also included services supported by illegible
                             documentation in this category.

                             Undocumented services consisted of services for which no
                             documentation was provided and services that were unsubstantiated by
                             their documentation. Records for unsubstantiated services did not
                             support that any service had been provided on the date claimed or
                             described a service that had already been claimed and paid.
                             Billing errors: This category includes a variety of errors for which the
                             claim submitted for reimbursement contained information that was
                             inconsistent with the documentation in the patient’s dental record.

                             Billing errors included services that were billed by the provider using
                             the incorrect procedure codes (i.e., miscoded services). Miscoded
                             services were categorized as upcoded when the provider submitted a
                             procedure code that had a higher reimbursement than the procedure
                             code for the service described in the dental record. Miscoded services
                             were categorized as downcoded when the submitted procedure code

                              33 These three categories were based on the information obtained from the five State
                             Medicaid policies.



         OEI-04-04-00210     I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   17
A   P   P E N D           I X           A




                                resulted in a lower reimbursement than the procedure code for the
                                service described in the dental record.

                                In addition, billing errors included services that were not billable
                                because they violated a Federal or State guideline required for
                                reimbursement. State guidelines that pertained to specific services
                                included, for example, limitations on the frequency of services or the
                                patient’s age. Because States establish these guidelines, they
                                sometimes varied by State.

                                We also included unbundled services in the billing error category.
                                Unbundling occurs when the provider bills for the service using multiple
                                individual procedure codes rather than a single appropriate code for the
                                combination of services described in the dental record.

                                Finally, billing errors included services that had records with incorrect
                                information, such as the wrong number of units (i.e., teeth and tooth
                                surface) as compared to the claim.
                                Medical necessity errors: This category included services that did not
                                meet the EPSDT medical necessity requirement and violated
                                established criteria prescribing the appropriate conditions under which
                                the service should be provided.
                                Errors with no payment effect: We identified 114 services that did not
                                affect the payment of the services; thus, these services were not
                                included in our error calculations. These services had the following
                                errors: incorrect procedure code (but the same reimbursement rate as
                                the code submitted), incorrect tooth number, incorrect tooth surface, and
                                incorrect date.
                                Data Analysis
                                We analyzed the medical record review results in SAS, a software
                                program used for statistical analysis. For each of the three error
                                categories, we statistically projected the error percentages and the
                                improper payments that were allowed by Medicaid for pediatric dental
                                services provided during 2003 in the five States. We also calculated the
                                improper payments based on the amount paid for the services as
                                specified in each State’s MMIS database.

                                For services that were upcoded, downcoded or unbundled or had the
                                incorrect number of units, we considered only a portion of the payment
                                for the service to be improper. We determined the improper amount for
                                each of these services by calculating the difference between the payment
                                made by Medicaid to the provider and the payment that should have

        OEI-04-04-00210         I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   18
A   P     P E N D         I X          A



                            been made according to the results of the medical record review. For all
                            other services (i.e., services with documentation errors, medically
                            unnecessary services, and services that were not billable), we considered
                            the entire amount paid to the provider to be improper.

                            See Appendix B for the point estimates and confidence intervals of the
                            errors and improper payments in the three error categories. Also, see
                            Appendix C for a detailed list of the different errors and improper
                            payments associated with the error subcategories.




        OEI-04-04-00210     I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   19
    Δ            A P P E N D I X                                   B



          Point Estimates and Confidence Intervals for Errors and Improper Payments, Medicaid
          Pediatric Dental Services Provided During 2003 in States A-E


Table 5: Estimates of Errors


Error                                                                      Point Estimate                                             95-Percent Confidence Interval

      Insufficiently documented services                                   17.6%                                                    13.8% - 21.4%

      Undocumented services*                                               6.5%*                                                    4.3% - 8.6%

Total documentation errors                                                                                         24.1%                                               20.0% - 28.2%

Billing errors                                                                                                        7.3%                                               4.9% - 9.8%

Medically unnecessary errors                                                                                          1.8%                                               0.6% - 3.1%

Overlapping errors                                                                                                 (2.3%)                                                0.5% - 4.1%

Total percentage of services that did not meet
                                                                                                                   30.9%                                               26.5% - 35.3%
Medicaid requirements
Shaded regions represent error subcategories.
* Estimate rounded up from 6.46 percent. 

Source: Office of Inspector General medical record review results, 2006. 





Table 6: Estimates of Improper Payments


Error                                                                             Point Estimate                                  95-Percent Confidence Interval

     Insufficiently documented services                                   $103,395,993                                            $65,219,781 - $92,376,038

     Undocumented services                                                $34,488,689                                             $27,627,518 - $41,349,861

Total documentation errors                                                                           $137,884,683                                      $120,880,396 -$154,888,969

Billing errors                                                                                         $12,113,796                                        $7,248,004 - $16,979,587

Medically unnecessary errors*                                                                          $11,777,685                                        $5,197,559 - $18,357,811

Overlapping errors**                                                                                   ($7,060,484)                                         $480,471 - $13,640,497

Total amount improperly paid (paid for services
                                                                                                     $154,715,679                                      $137,378,140 - $172,053,218
that did not meet Medicaid requirements)
Shaded regions represent error subcategories.
* Relative precision for this estimate equals 56 percent. 

** Relative precision is too large to confidently project. 

Source: Office of Inspector General medical record review results, 2006. 




                       OEI-04-04-00210             I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S                       20
A   P   P E N D             I X          B           





    Table 7: Estimates of Improper Payments for Documentation Errors
    by State


    State             Point Estimate                           95-Percent Confidence Interval

          A                            $3,194,156                                              $2,390,295 - $3,998,018

          B                           $25,317,124                                         $20,996,594 - $29,637,655

          C                           $71,781,397                                         $56,291,098 - $87,271,696

          D                           $24,175,769                                         $19,516,426 - $28,835,113

          E                           $13,416,235                                         $10,557,261 - $16,275,210

    Source: Office of Inspector General medical record review results, 2006.




    Table 8: Estimates of Improper Payments for All Errors by State


    State                   Point Estimate                                95-Percent Confidence Interval

          A                            $3,383,541                                              $2,571,454 - $4,195,628

          B                           $28,562,425                                         $24,176,361 - $32,948,489

          C                           $77,911,242                                         $62,201,055 - $93,621,428

          D                           $26,980,293                                         $22,154,415 - $31,806,170

          E                           $17,878,178                                         $14,623,313 - $21,133,044

    Source: Office of Inspector General medical record review results, 2006.




              OEI-04-04-00210            I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   21
A      P    P E N D             I X          B            





    Table 9: Estimates of Documentation Error Rates by State


    State                    Point Estimate                                 95-Percent Confidence Interval

           A                                   18.3%                                                                        12.8% - 23.7%

           B                                   24.3%                                                                        19.2% - 29.4%

           C                                   26.1%                                                                        19.4% - 32.8%

           D                                   21.7%                                                                        16.6% - 26.9%

           E                                   17.1%                                                                        12.9% - 21.3%

    Source: Office of Inspector General medical record review results, 2006.




    Table 10: Estimates of Error Rates by State


    State               Point Estimate                                            95-Percent Confidence Interval

           A                                   18.9%                                                                        13.5% - 24.3%


           B                                   31.7%                                                                        26.2% - 37.3%


           C                                   30.9%                                                                        24.0% - 38.0%


           D                                   31.2%                                                                        25.0% - 37.4%


           E                                   33.4%                                                                        27.4% - 39.4%

    Source: Office of Inspector General medical record review results, 2006.




               OEI-04-04-00210           I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S    22
       Δ            A P P E N D I X                                       C




                                                DETAILED ERROR SUMMARY
                                                Tables 11-13 provide a detailed summary of the errors identified in the
                                                medical record review, accompanied by the error rates and improper
                                                payments, as projected to the population.

                                                Table 11 lists the errors and improper payments associated with
                                                documentation errors; Table 12 lists the errors and improper payments
                                                associated with billing errors; and Table 13 lists the errors and
                                                improper payments associated with all three error categories
                                                (documentation, billing, and medical necessity) and gives the totals.


   Table 11: Medicaid Pediatric Dental Services - Documentation Errors in Five States, 2003

                                                                               Sample                                                             Population
                                                                                                                          Services                       Amount Paid
  Type of Documentation Error                               Services                  Amount Paid                       (Percentage)                       (Millions)
   Insufficient documentation to
    determine whether medically                            292                      $36,018                            13.2%                      $78,797,909
    necessary
    Insufficient documentation to
                                                           131                      $15,701                            8.7%                       $46,190,060
     determine whether correctly billed
    Both*                                                  (64)                    ( $6,952)                           (4.3%)                     ($21,591,976)
 Total insufficient documentation                                     359                         $44,766                            17.6%                        $103,395,993
    No documentation provided                              80                       $9,768                             4.1%                       $20,921,415
    Unsubstantiated services (services
                                                           58                       $6,023                             2.3%                       $13,567,274
     not documented)
 Total undocumented                                                   138                         $15,791                           6.5%**                         $34,488,689
 Total Documentation Errors                                           497                         $60,557                            24.1%                        $137,884,683
Shaded regions represent error subcategories.
* Overlapping errors are subtracted to obtain the category’s total. 

** Estimate rounded up from 6.46 percent. 

Lines may not sum to totals because of rounding. 

Source: Office of Inspector General medical record review of Medicaid pediatric dental services.





                   OEI-04-04-00210              I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S                          23
A     P    P E N D               I X           C            





    Table 12: Medicaid Pediatric Dental Services - Billing Errors in Five States, 2003

                                                                                  Sample                                                         Population
                                                                                                                          Services                      Amount Paid
    Type of Billing Error                                        Services               Amount Paid                     (Percentage)                      (Millions)
      Upcoded                                                   33                     $1,529                          1.8%                        $2,924,005*
      Downcoded                                                 12                       ($211)                        0.7%                        ($854,265)*
 Total incorrect procedure code                                             45                      $1,318                              2.4%                    $2,069,740*
 No billable service                                                        32                      $1,184                              3.0%                     $8,365,999
 Unbundled services                                                         17                          $200                            1.8%                    $1,148,501*
 Incorrect number of units                                                    6                         $776                            0.1%                     $529,555*
 Total Billing Errors                                                     100                       $3,478                              7.3%                   $12,113,796
Shaded regions represent error subcategories.
* Relative precision is too large to confidently project. 

Lines may not sum to totals because of rounding. 

Source: Office of Inspector General medical record review of Medicaid pediatric dental services. 





    Table 13: Medicaid Pediatric Dental Services - Total Errors in Five States, 2003

                                                                                       Sample                                                     Population
                                                                                                                                  Services               Amount Paid
 Type of Error – All Categories                                       Services                 Amount Paid                      (Percentage)              (Millions)
 Total documentation errors                                                 497                    $60,557                             24.1%               $137,884,683
 Total billing errors                                                             100                       $3,478                             7.3%            $12,113,796
 Total medically unnecessary                                                       39                       $4,559                             1.8%           $11,777,685*
 (Overlapping errors)**                                                           (18)                      ($835)                            (2.3%)           ($7,060,484)
 Total Errors                                                                     618                    $67,760                              30.9%           $ 154,715,679
* Relative precision is too large to confidently project. 

** Overlapping errors are subtracted to obtain the category’s total.

Lines may not sum to totals because of rounding. 

Source: Office of Inspector General medical record review of Medicaid pediatric dental services. 





              OEI-04-04-00210               I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S                               24
Δ   A P P E N D I X                               D


                Comparison of Documentation and Total Error Rates by State


                  Table 14: Documentation Error Rates in the Five States

                                                                   Proportion of Services
                      State                Documentation Errors                                             Total Errors
                       A                                  18.3%                                                  18.9%
                       B                                  24.3%                                                  31.7%
                       C                                  26.1%                                                  30.9%
                       D                                  21.7%                                                  31.2%
                       E                                  17.1%                                                  33.4%
                  Note that estimated total error rates do not include overlapping errors. 


                  Source: Office of Inspector General medical record review results, 2006.



                See Tables 9 and 10 of Appendix B for the confidence intervals associated with
                these estimates.




    OEI-04-04-00210         I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   25
Δ      A P P E N D I X                               E



                      AGENCY COMMENTS 





    OEI-04-04-00210   I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   26
A P P E N D          I X           E            





   OEI-04-04-00210         I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   27
A P P E N D         I X          E           





  OEI-04-04-00210     I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   28
Δ    A C K N O W L E D G M E N T S



                      This report was prepared under the direction of Robert A. Vito, Acting
                      Regional Inspector General, and Ann O’Connor, Regional Inspector
                      General for Evaluation and Inspections.

                      Mina Zadeh served as the team leader for this report. Other principal
                      Office of Evaluation and Inspections staff from the Atlanta and San
                      Francisco regional offices who contributed include Sarah Ambrose,
                      Camille Harper, Scott Hutchison, Gerius Patterson, Thomas Purvis, and
                      China Tantameng; central office staff who contributed include Ayana
                      Everett and Kevin Farber.




    OEI-04-04-00210   I M P R O P E R PAY M E N T S F O R M E D I C A I D P E D I AT R I C D E N TA L S E R V I C E S   29
